AFFIDAVIT OF SERVICE
No. 20-1136
CAPITAL CASE

PETER CAPOTE, Petitioner,

v.
STATE OF ALABAMA, Respondent.

STATE OF NEW YORK

)
) ss.:
COUNTYOFNEWYORK)
Hayley T. Allis, being duly sworn, deposes and says: I am over 18 years of

age, employed by Bracewell LLP and not a party to this action.
On March 25, 2021, I served the following documents:
1. Reply in Support of Petition for Writ of Certiorari, dated March 25,

2021,
2. Certificate of Compliance, dated March 25, 2021,

upon the parties herein by enclosing true copies thereof in a sealed properly
addressed postage paid Federal Express envelope for overnight delivery deposited
into the custody of the overnight delivery service prior to the latest time
designated by them for overnight delivery addressed as follows:
Steve Marshall
Morgan Shelton
Office of the Attorney General
501 Washington Avenue
Montgomery, AL 36130
1

In addition, on March 25, 2021, I served true copies of the aforesaid
documents, upon the attorneys for th e parties herein by electronic mail to the
following addi·esses:
capitallit@ago.state.al.us
docketroom@ago.state.al.us
morgan.shelton@AlabamaAG.gov

Sworn to before me this
25th day of March, 2021

2

